[United States Court of Appeals
Fifth Circuit
FILED
January 22, 2020
Lyle W. Cayce
Clerk]
IN THE UNITED STATES COURT OF
APPEALS
FOR THE FIFTH CIRCUIT COURT
__________________
No. 18-10306
__________________
JAMES CHRISTOPHER NORTH,
Petitioner - Appellant
v.
LORIE DAVIS, DIRECTOR, TEXAS
DEPARTMENT OF CRIMINAL JUSTICE,
CORRECTIONAL INSTITUTIONS DIVISION,
Respondent - Appellee
__________________
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 1:16-CV-189
__________________
Before HIGGINBOTHAM, JONES, and DUNCAN,
Circuit Judges.

1a

PER CURIAM: *
Appellant James North, a Texas state prisoner
convicted of murder, seeks federal habeas relief under
28 U.S.C. § 2254. The district court dismissed North’s
habeas application on the merits without deciding
whether it was barred by the statute of limitations.
We granted a Certificate of Appealability on one of
North’s four claims. We now hold that North’s
application was time-barred and that he is not
entitled to equitable tolling. The district court’s
judgment is affirmed.
I.
A jury convicted Appellant James North of
murder in 2011 after he shot and killed a man during
a road-rage incident in Abilene, Texas. 1 North’s
conviction became final on December 16, 2014. On
November 6, 2015, North filed a habeas corpus
petition in state court raising four claims of ineffective
assistance of counsel. On January 6, 2016, the Texas
Court of Criminal Appeals (“TCCA”) dismissed
North’s petition for failure to comply with Texas Rule
of Appellate Procedure 73.1(f), which requires
applicants to “include a certificate . . . stating the
number of words in” their supporting memoranda. 2
On January 14, North filed a motion for
reconsideration, which the TCCA denied on January
Pursuant to 5TH CIR. R. 47.5, the court has determined that this
opinion should not be published and is not precedent except
under the limited circumstances set forth in 5TH CIR. R. 47.5.4.
1 See North v. State, No. 11-11-00338-CR, 2014 WL 272455, *1–
2 (Tex. App.—Eastland Jan. 24, 2014, pet. ref’d) (unpublished).
2 TEX. R. APP. P. 73.1(f).
*

2a

29. Meanwhile, on January 28, 2016, North filed a
new state habeas petition raising the same
arguments as the first. On September 21, 2016, the
TCCA denied the second petition without written
order.
Following the completion of state-court
proceedings, North filed a counseled § 2254 petition
in the federal district court on October 26, 2016. The
district court denied the petition on the merits on
March 2, 2018 without deciding whether it was timely
filed. North appealed and moved for a Certificate of
Appealability (“COA”) on two of his four ineffectiveassistance claims. This Court granted a COA on the
sole issue of whether North was prejudiced by his trial
attorneys’ failure to object to an alternate juror’s
presence in the jury room during deliberations.
II.
On appeal from the dismissal of a § 2254
petition, we review the district court’s findings of fact
for clear error and its conclusions of law de novo,
“applying the same standard of review to the state
court’s decision as the district court.” 3 Pursuant to the
Antiterrorism and Effective Death Penalty Act
(“AEDPA”), a federal court may not grant habeas
relief unless the state-court judgment rejecting the
petitioner’s claims (1) “was contrary to, or involved an
unreasonable application of, clearly established
federal law, as determined by the Supreme Court of
the United States,” or (2) “was based on an

3

Martinez v. Johnson, 255 F.3d 229, 237 (5th Cir. 2001).

3a

unreasonable determination of the facts in light of the
evidence presented in the State court proceeding.” 4
AEDPA imposes a one-year statute of
limitations for filing a federal habeas petition,
starting from the date a petitioner’s conviction
becomes final. 5 This one-year period is tolled for
“[t]he time during which a properly filed application
for State post-conviction or other collateral review
with respect to the pertinent judgment or claim is
pending.” 6 In addition, the limitations period may be
equitably tolled if the petitioner shows “(1) that he
had been pursuing his rights diligently, and (2) that
some extraordinary circumstance stood in his way
and prevented timely filing.” 7
III.
The State contends that North’s § 2254
application is time-barred because it was filed more
than one year after his conviction became final and
does not meet the requirements for statutory or
equitable tolling. In the State’s view, North’s first
state-court habeas petition did not toll AEDPA’s
limitations period because it was not properly filed.
Further, North is not entitled to equitable tolling
because he failed to pursue his rights diligently and
28 U.S.C. § 2254(d)(1)–(2).
Id. § 2244(d)(1).
6 Id. § 2244(d)(2); see Carey v. Saffold, 536 U.S. 214, 219–20
(2002) (A state post-conviction application remains “pending . . .
until the application has achieved final resolution through the
State’s post-conviction procedure.”).
7 Mathis v. Thaler, 616 F.3d 461, 474 (5th Cir. 2010) (internal
quotation marks and alterations omitted) (quoting Holland v.
Florida, 560 U.S. 631, 649 (2010)).
4
5

4a

identifies no extraordinary circumstance
prevented him from timely filing.

that

North counters that his initial state habeas
application was properly filed on November 6, 2015,
and remained pending until September 21, 2016, thus
tolling the limitations period for 320 days and making
his federal application timely with five days to spare.
North further argues that even if statutory tolling
does not apply, he is entitled to equitable tolling
because the state courts misled him into believing his
application would be considered on the merits.
Alternatively, North argues that equitable tolling
should apply because his state habeas counsel was
ineffective for failing to include the certificate of
compliance required by Rule 73.1(f).
We agree with the State. It is uncontested that
AEDPA’s one-year statute of limitations began to run
when North’s conviction became final on December
16, 2014. North filed his federal petition 680 days
later, long after the limitations period had expired.
True, North’s initial state-court petition was filed
within the limitations period. However, it was not
“properly filed” because it failed to comply with Texas
Rule of Appellate Procedure 73.1’s word-count
requirement. 8 Thus, it did not toll the statute of
limitations. As the Supreme Court has stated, a §
2254 application is properly filed only “when its
delivery and acceptance are in compliance with the
applicable laws and rules governing filings,”
including precise requirements for “the form of the
document.” 9 Accordingly, this Court has affirmed that
8
9

28 U.S.C. § 2244(d)(2) (emphasis added).
Artuz v. Bennett, 531 U.S. 4, 8 (2000).

5a

“a ‘properly filed application’ for § 2244(d)(2) purposes
is one that conforms with a state’s applicable
procedural filing requirements.” 10 Indeed, we have
specifically recognized that “compliance with the
requirements of Rule 73.1 is a prerequisite to
consideration of the merits of an applicant’s claims.” 11
Thus, a petition dismissed by the TCCA for
noncompliance with Rule 73.1 is not properly filed
and does not toll AEDPA’s limitations period. 12 By the
time North properly filed his second state habeas
petition on January 28, 2016, well over a year had
passed since his conviction became final.
North attempts to distinguish our precedents
by arguing that his Rule 73.1 violation only pertained
to the memorandum accompanying his application,
not the habeas application itself. He cites no authority
for drawing such a distinction. Moreover, by its own
terms, Rule 73.1(f) applies to all “computer-generated
memorand[a], including any additional memoranda”
filed in support of a petition. 13 In any event, the
Supreme Court has indicated—and this Court has
held in an unpublished opinion—that even if a state
court’s grounds for dismissing a habeas petition as
10 Mathis, 616 F.3d at 471 (quoting Villegas v. Johnson, 184 F.3d
467, 470 (5th Cir. 1999)); see Wilson v. Cain, 564 F.3d 702, 704
(5th Cir. 2009).
11 Broussard v. Thaler, 414 F. App’x 686, 688 (5th Cir. 2011)
(unpublished) (per curiam).
12 Id.; see also Davis v. Quarterman, 342 F. App’x 952, 953 (5th
Cir. 2009) (unpublished) (per curiam) (holding that an
application “not filed in conformity with [Rule] 73.1 . . . was not
a ‘properly filed’ state application” and “did not toll the limitation
period”).
13 TEX. R. APP. P. 73.1(f).

6a

improperly filed are “debatable,” the dismissal is
nonetheless “dispositive.” 14
Even if we were to assume that North’s first
state application did toll the limitations period until
it was dismissed on January 6, 2016 and, further, that
statutory tolling commenced again with North’s
motion for reconsideration on January 14, 2016, his
federal petition would still be three days late. 15
North’s attempt to avoid this result with the further
assumption that his first state application remained
“pending” after the January 6 dismissal is
unsupported by any authority.
Because North’s claim for statutory tolling
fails, his only hope is equitable tolling. Here, too, his
arguments are unavailing. Equitable tolling is
available only where the petitioner can show “(1) that
he had been pursuing his rights diligently, and (2)
that some extraordinary circumstance stood in his
way and prevented timely filing.” 16 First, North’s
Koumjian v. Thaler, 484 F. App’x 966, 968 (5th Cir. 2012)
(unpublished) (per curiam) (citing Carey v. Saffold, 536 U.S. 214,
226 (2002) and Pace v. DiGuglielmo, 544 U.S. 408, 417 (2005)).
15 North filed his federal application 680 days after his conviction
became final. He argues that the limitations period was tolled
from the filing of his first state habeas application on November
6, 2015 to the dismissal of his second state habeas application on
September 21, 2016, a period of 320 days. This overlooks the
period between the dismissal of his first application on January
6, 2016 and the filing of his second application on January 28,
2016, a period of 22 days. That reduces the tolling to 298 days,
and 680 – 298 = 382 days (17 days late). Reducing the gap from
22 days to 8 days by crediting the motion for reconsideration
yields 312 days of tolling, and 680 – 312 = 368 (3 days late).
16 Mathis, 616 F.3d at 474 (internal quotation marks and
alterations omitted).
14

7a

eleven-month delay in filing his initial state
application weighs against a finding of diligence. 17
Second and more importantly, North cannot point to
any “extraordinary circumstance” that prevented
timely filing. 18
This Court has recognized that “extraordinary
circumstances exist where a petitioner is misled by an
affirmative, but incorrect, representation of a district
court on which he relies to his detriment.” 19 North
argues that the state trial court and the TCCA misled
him to believe “that his state habeas application
would be considered on the merits”—the trial court by
declining to decide on timeliness grounds, and the
TCCA by its inconsistent application of Rule 73.1.
Because the TCCA sometimes exercises jurisdiction
despite Rule 73.1 deficiencies, North argues, it “lulled
[him] into inaction” by permitting him to draw the
assumption that a filing error would not result in
dismissal. 20
Even
assuming
that
incorrect
representations of a state habeas court, rather than a
federal district court, can excuse a habeas petitioner’s
late filing, North’s claim fails because he identifies no
incorrect statement by any court on which he might
17 See, e.g., Stroman v. Thaler, 603 F.3d 299, 302 (5th Cir. 2010)
(affirming the denial of equitable tolling where, inter alia, the
petitioner had waited seven months to file his state application).
18 See Mathis, 616 F.3d at 474–75.
19 Cousin v. Lensing, 310 F.3d 843, 848 (5th Cir. 2002) (citing
United States v. Patterson, 211 F.3d 927, 931–32 (5th Cir. 2000)).
20 See Ex parte Dotson, No. WR–84,802–01, 2016 WL 1719367,
at *1 n.1 (Tex. Crim. App. Apr. 27, 2016) (unpublished) (per
curiam) (“[T]his application does not comply with . . . TEX. R. APP.
P. 73.1(f). However, because the record in this case is clear, we
will exercise our jurisdiction and grant relief.”).

8a

have relied. The trial court was at liberty to decide on
the merits rather than on limitations grounds, 21 and
dismissals by the TCCA for violations of Rule 73.1, if
not universal, are at least routine. 22
Essentially, North’s argument is that an
improperly filed state habeas application tolls the
limitations period unless and until the state court
notifies the petitioner of the filing deficiency. This
view would write the “properly filed” condition out of
the statute and run afoul of Supreme Court precedent
stressing that petitioners must satisfy both the
“pending” and “properly filed” requirements. 23
Indeed, this Court has held that even “if a state court
mistakenly accepts and considers the merits of a state
habeas application in violation of its own procedural

21 Saffold, 536 U.S. at 225–26 (“A court will sometimes address
the merits of a claim that it believes was presented in an
untimely way: for instance, where the merits present no difficult
issue; where the court wants to give a reviewing court
alternative grounds for decision; or where the court wishes to
show a prisoner (who may not have a lawyer) that it was not
merely a procedural technicality that precluded him from
obtaining relief.”).
22 See, e.g., Ex parte Blacklock, 191 S.W.3d 718, 719 (Tex. Crim.
App. 2006) (dismissing a habeas application because “the form
was not filled out as required by the appellate rules,” specifically
Rule 73.1(c)); see also Dittman v. Davis, No. 3:16-cv-2339-C-BN,
2017 WL 4535286, at *3 (N.D. Tex. Sept. 21, 2017) (quoting
Broussard, 414 F. App’x at 688) (“Even if the state trial court (or
the convicting court) considers the merits of the state-habeas
petition, the CCA may still dismiss that petition under Rule 73.1
. . . , as the CCA ‘makes the final decision whether the
application complies with all filing requirements and whether to
grant or deny the application.’”).
23 See Artuz, 531 U.S. at 9.

9a

filing requirements . . . , that habeas application is not
‘properly filed.’” 24
Nor is North entitled to equitable tolling on the
ground that his state habeas counsel was ineffective
for failing to include the certificate of compliance
required by Rule 73.1(f). As the Supreme Court has
explained, only “abandonment” by counsel, not mere
“attorney negligence” or “attorney error,” can support
equitable tolling. 25 North’s allegation is but a “‘garden
variety claim of excusable neglect’ [that] does not
warrant equitable tolling.” 26
IV.
In sum, North’s federal habeas application is
time-barred. Whereas the district court dismissed
North’s application on its merits without considering
timeliness, we reach the same conclusion on
timeliness grounds without addressing the merits.
The judgment of the district court is affirmed.

Larry v. Dretke, 361 F.3d 890, 895 (5th Cir. 2004).
Maples v. Thomas, 565 U.S. 266, 282 (2012).
26 Holland, 560 U.S. at 651–52 (quoting Irwin v. Dep’t of Veterans
Affairs, 498 U.S. 89, 96 (1990)).
24
25

10a

[United States Court of Appeals
Fifth Circuit
FILED
January 22, 2020
Lyle W. Cayce
Clerk]
Certified as a true and correct copy
and issued as the mandate on Feb
13, 2020
Attest: Lyle W. Cayce
Clerk, U.S. Court of Appeals,
Fifth Circuit
IN THE UNITED STATES COURT OF
APPEALS
FOR THE FIFTH CIRCUIT COURT
__________________
No. 18-10306
__________________
D.C. Docket No. 1:16-CV-189
JAMES CHRISTOPHER NORTH,
Petitioner - Appellant
v.
LORIE DAVIS, TEXAS DEPARTMENT OF
CRIMINAL JUSTICE, CORRECTIONAL
INSTITUTIONS DIVISION,
Respondent – Appellee

11a

Appeal from the United States District Court
for the Northern District of Texas
Before HIGGINBOTHAM, JONES, and DUNCAN,
Circuit Judges.
JUDGMENT
This cause was considered on the record on
appeal and was argued by counsel.
It is ordered and adjudged that the judgment of
the District Court is affirmed.
IT IS FURTHER ORDERED that each party
bear its own costs on appeal.

12a

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
ABILENE DIVISION
JAMES CHRISTOPHER
NORTH

)
)
)
Petitioner,
)
)
v.
) CIVIL ACTION
) NO. 1:16-CV) 189-C
LORIE DAVIS, Director, Texas )
Department of Criminal
)
Justice, Correctional
)
Institutions Division,
)
)
Respondent.
)
JUDGMENT
IT IS ORDERED, ADJUDGED, AND
DECREED that the above-styled and -numbered
cause is dismissed with prejudice.
Dated March 2, 2018.
s/ Sam R. Cummings
SAM R. SUMMINGS
Senior United States
District Judge

13a

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
ABILENE DIVISION
JAMES CHRISTOPHER
NORTH

)
)
)
Petitioner,
)
)
v.
) CIVIL ACTION
) NO. 1:16-CV) 189-C
LORIE DAVIS, Director, Texas )
Department of Criminal
)
Justice, Correctional
)
Institutions Division,
)
)
Respondent.
)
ORDER
Petitioner, James Christopher North, with the
assistance of counsel, filed a Petition for Writ of
Habeas Corpus by a Person in State Custody
pursuant to 28 U.S.C. § 2254 on October 26, 2016.
Respondent filed copies of Petitioner’s state court
records and an Answer with Brief in Support.
Petitioner filed a reply. Also pending before the Court
is Petitioner’s Motion for Discovery (Gunshot Residue
Testing), Respondent’s Response in Opposition to
Motion for Discovery, and Petitioner’s Reply.

14a

I. BACKGROUND
The Court has reviewed the pleadings and
state court records and finds the following:
l.
Petitioner is in custody
pursuant to a judgment and sentence
out of the 350th District Court of Taylor
County, Texas, in Case No. 9790-D
styled The State of Texas v. James
Christopher North. By indictment filed
on February 17, 2011, Petitioner was
charged with the murder of Austin Dale
David by shooting him with a handgun.
2.
Voir dire for the jury trial
commenced on October 11, 2011, and
trial commenced the following day.
Although Petitioner pleaded not guilty,
the jury found Petitioner guilty on
October 25, 2011. The punishment
phase commenced the next day, and on
October 26, 2011, the jury assessed
Petitioner’s punishment at seventy (70)
years’ confinement in the Texas
Department of Criminal Justice (TDCJ).
The trial court pronounced judgment the
same day.
3.
Petitioner filed a motion for
new trial as well as a notice of appeal on
November 23, 2011. He raised two
issues on appeal: the trial court (1)
incorrectly charged the jury as to the law
of self-defense and (2) abused its
discretion when it refused to give the
15a

jury a “presumption of reasonableness”
instruction.
4.
In an unpublished opinion
filed January 24, 2014, the Eleventh
Court of Appeals
affirmed
the
conviction. Mandate issued October 23,
2014.
5.
Petitioner’s motion for
extension of time to file his petition for
discretionary review (PDR) was granted
on June 11, 2014, making his PDR due
on July 9, 2014. Petitioner timely filed
his PDR raising one ground for review:
the evidence presented at trial, when
viewed in the light most favorable to the
defense, raised the issue of self-defense
and the Court of Appeals’ decision
holding otherwise conflicts with prior
decisions and amounts to a severe
departure from the accepted and normal
course of judicial proceedings. The PDR
was refused on September 17, 2014.
6.
Petitioner did not file a
petition for writ of certiorari.
7.
Petitioner filed his first
application for writ of habeas corpus,
with assistance of counsel, in the trial
court on November 6, 2015. In State
Writ No. 84,239-01, Petitioner raised
four grounds for review: his trial
attorneys were ineffective for failing to
(1) present his most viable defense; (2)
16a

object to the trial court’s instruction to
the alternate juror to be present during
the jury’s deliberation; (3) investigate
and present crucial evidence in support
of the alternative defense advanced; and
(4) prepare witnesses to testify.
Petitioner filed a motion for forensic
testing along with his first state habeas
application.
8.
On November 20, 2015, the
trial court entered findings and
conclusions regarding three of the four
grounds raised in Petitioner’s first state
habeas application.
9.

On January 6, 2016, the
Texas Court of Criminal Appeals
(TCCA) dismissed Petitioner’s first state
habeas application as noncompliant
with Tex. R. App. P. 73.1.
10.
On January 14, 2016,
Petitioner filed a Motion to Sua Sponte
Reconsider the Dismissal of Application
for Writ of Habeas Corpus for NonCompliance with Tex. R. App. P. 73.1.
The Motion was denied on January 29,
2016.
11.
Petitioner filed his second
application for writ of habeas corpus in
the trial court on January 28, 2016. In
State Writ No. 84,239-02, Petitioner
raised the same four grounds as those
raised in his first state habeas
17a

application. Petitioner also filed a
motion for forensic testing along with
his second state habeas application.
12.
On February 17, 2016, the
trial court filed its response to the
second state habeas application,
essentially attaching and incorporating
the findings and conclusions filed in
response to the first state habeas
application.
13.
On June 8, 2016, the TCCA
ordered the trial court to make findings
of fact and conclusions of law as to
whether the performance of trial counsel
was deficient and, if so, whether
counsel’s
deficient
performance
prejudiced Petitioner. The trial court
obtained affidavits from Petitioner’s
trial counsel and entered findings of fact
and conclusions of law in response on
June 30, 2016, finding that trial counsel
was not deficient.
14.
On September 21, 2016, the
TCCA denied Petitioner’s second state
habeas application without written
order.
15.
Petitioner filed the instant
petition on October 26, 2016. The Court
understands
Petitioner
to
raise
essentially the same four grounds for
review as he raised in his state habeas
applications - that is, he received
18a

ineffective assistance of trial counsel
when counsel failed to(1) present
Petitioner’s most viable defense; (2)
object to the trial court’s instruction to
the alternate juror to be present during
the jury’s deliberations; (3) failed to
investigate and present crucial evidence
in support of self-defense; and (4) failed
to prepare witnesses to testify.
Petitioner also contends that the
cumulative effect of these errors was
prejudicial.
16.
This Court has jurisdiction
over the parties and subject matter
pursuant to 28U.S.C. §§ 2241 and 2254,
as amended by the Antiterrorism and
Effective Death Penalty Act of 1996
(“AEDPA”).
II. STANDARD OF REVIEW
“The [AEDPA] modified a federal habeas
court’s role in reviewing state prisoner applications in
order to prevent federal habeas ‘retrials’ and to ensure
that state court convictions are given effect to the
extent possible under law.” Bell v. Cone, 535 U.S. 685,
693 (2002).
Under the Antiterrorism and Effective Death
Penalty Act, a petitioner may not obtain habeas
corpus relief in federal court with respect to any claim
adjudicated on the merits in state court proceedings
unless the adjudication of the claim resulted in a
decision contrary to clearly established federal
constitutional law or resulted in a decision based on
19a

an unreasonable determination of the facts in light of
the evidence presented in the state court proceedings.
28 U.S.C. § 2254(d). This section creates a “highly
deferential standard for evaluating state-court
rulings, ... which demands that state-court decisions
be given the benefit of the doubt.” Woodford v.
Viscotti, 537 U.S. 19, 24 (2002) (per curiam) (internal
quotation marks omitted).
“In the context of federal habeas proceedings,
adjudication ‘on the merits’ is a term of art that refers
to whether a court’s disposition of the case was
substantive as opposed to procedural.” Neal v.
Puckett, 239 F.3d 683,686 (5th Cir. 2001). In Texas
writ jurisprudence, a “denial” of relief usually serves
to dispose of claims on their merits. Miller v. Johnson,
200 F.3d 274,281 (5th Cir. 2000). See Ex parte Torres,
943 S.W.2d 469,474 (Tex. Crim. App. 1997) (holding
that “denial” signifies the Court of Criminal Appeals
addressed and rejected the merits of a state habeas
claim, 1 while “dismissal” signifies the Court declined

1 In Ex parte Torres, the Court of Criminal Appeals stated
that “[d]ispositions relating to the merits should be labeled
‘ denials’ while dispositions unrelated to the merits should
be labeled ‘dismissals’ . . . .” Id. at 474. “A disposition is
related to the merits if it decides the merits or makes a
determination that the merits of the applicant’s claims can
never be decided.” Id . (citing Hawkins v. Evans, 64 F.3d
543, 547 (10th Cir. 1995) (disposition is considered “on the
merits” if the court refuses to determine the merits because
of state procedural default)). Accord Ex parte Grigsby, 137
S.W.3d 673, 674 (Tex. Crim. App. 2004).

20a

to consider the claim for reasons unrelated to the
merits).
A state-court factual determination is not
unreasonable merely because the federal court would
have reached a different conclusion in the first
instance. Burt v. Titlow, -- U.S. --, 134 S. Ct. 10, 15
(2013). Section 2254(e)(l) provides that a
determination of a factual issue made by a state court
shall be presumed to be correct. Petitioner has the
burden of rebutting this presumption of correctness
by clear and convincing evidence. Canales v.
Stephens, 765 F.3d 551,563 (5th Cir. 2014). When the
Texas Court of Criminal Appeals denies relief in a
state habeas corpus application without written
order, as in this case, it is an adjudication on the
merits, which is entitled to this presumption. Ex parte
Torres, 943 S.W.2d 469,472 (Tex. Crim. App. 1997);
Singleton v. Johnson, 178 F.3d 381, 384 (5th Cir.
1999)
(recognizing
this
Texas
state
writ
jurisprudence).
Petitioner’s burden before this Court is
significantly heightened in that Petitioner cannot
prevail even if he shows that the state court’s
determination was incorrect. Petitioner must also
show that the state court unreasonably applied
federal law or made an unreasonable determination
of the facts. Neal v. Puckett, 286 F.3d 230, 235 (5th
Cir. 2002), cert. denied, Neal v. Epps, 537 U.S. 1104
(2003).
The facts of the case were summarized in the
unpublished opinion of the Eleventh Court of Appeals
sitting in Eastland, Texas, and such were recited in
Respondent’s Answer. Petitioner has provided no
21a

evidence to refute the summary; therefore, the Court
shall not recite the facts again.
III. DISCUSSION
After carefully reviewing the state court
records and the pleadings, the Court finds that an
evidentiary hearing is not necessary to resolve the
instant petition. See Young v. Herring, 938 F.2d
543,560 n. 12 (5th Cir. 1991) (“[A] petitioner need not
receive an evidentiary hearing if it would not develop
material facts relevant to the constitutionality of his
conviction.”).
Petitioner urges the Court to find that he
received ineffective assistance of counsel in four
separate grounds. In response, Respondent argues
that Petitioner’s federal habeas petition is barred by
the AEDPA’s statute of limitations.
Alternatively, Respondent argues that the
petition lacks merit because Petitioner has not shown
that the state court’s adjudication of his ineffective
assistance of counsel claims reflected an
unreasonable application of clearly established
federal law as set out in Strickland v. Washington,
466 U.S. 668 (1984) and Harrington v. Richter, 562
U.S. 86, 104 (2011). See 2254(d)(l). In his Reply,
Petitioner argues that his petition is timely based
upon both statutory and equitable tolling. Moreover,
Petitioner argues that counsel’s decisions in
representing Petitioner amounted to unreasonable
and deficient performance, and that the state court’s
rejection of his application was contrary to, and
involved an unreasonable application of, clearly
established Federal law, and was based on an
22a

unreasonable determination of the facts in light of the
evidence presented in the state court proceeding.
Ineffective Assistance of Counsel
The proper standard for judging Petitioner’s
claims that he received ineffective assistance of
counsel is enunciated in Strickland v. Washington,
466 U.S. 668, 689, 104 S. Ct. 2052, 2065, 80 L. Ed. 2d
674 (1984). Under the two-pronged Strickland
standard, a petitioner must show that defense
counsel’s performance was both deficient and
prejudicial. Id. at 687, 104 S. Ct. at 2064. An
attorney’s performance was deficient if the attorney
made errors so serious that the attorney was not
functioning as the “counsel” guaranteed the
defendant by the Sixth Amendment to the United
States Constitution. Id. That is, counsel’s
performance must have fallen below the standards of
reasonably competent representation as determined
by the norms of the profession.
A reviewing court’s scrutiny of trial counsel’s
performance is highly deferential, with a strong
presumption that counsel’s performance falls within
the wide range of reasonable professional assistance.
Id. at 689, 104 S. Ct. at 2065. A strong presumption
exists “that trial counsel rendered adequate
assistance and that the challenged conduct was
reasoned trial strategy.” Wilkerson v. Collins, 950
F.2d 1054, 1065 (5th Cir. 1992) (citing Strickland, 466
U.S. at 694, 104 S. Ct. at 2068). This is a heavy burden
that requires a “substantial,” and not just a
“conceivable,” likelihood of a different result.
Harrington v. Richter, 562 U.S. 86, 104, 131 S. Ct.
770, 787, 178 L.Ed. 2d 624 (2011); see also Cullen v.
23a

Pinholster, 563 U.S. 170, 189, 131 S. Ct. 1388, 1403,
179 L. Ed. 2d 557 (2011).
Additionally, a petitioner must show that
counsel’s deficient performance prejudiced the
defense. To establish this prong, a petitioner must
show that counsel’s errors were so serious as to
deprive petitioner of a fair trial. Strickland, 466 U.S.
at 687, 104 S. Ct. at 2064. Specifically, to prove
prejudice, a petitioner must show “(1) there is a
reasonable probability that, but for counsel’s
unprofessional errors, the ultimate result of the
proceeding would have been different ... and (2)
counsel’s deficient performance rendered the trial
fundamentally unfair.” Creel v. Johnson, 162 F.3d
385,395 (5th Cir. 1998). “Unreliability or unfairness
does not result if the ineffectiveness of counsel does
not deprive the defendant of any substantive or
procedural right to which the law entitles him.”
Lockhart v. Fretwell, 506 U.S. 364, 372, 113 S. Ct. 838,
844, 122 L. Ed. 2d 180 (1993). A showing of significant
prejudice is required. Spriggs v. Collins, 993 F.2d 85,
88 n. 4. (5th Cir. 1993). If a petitioner fails to show
either the deficiency or prejudice prong of the
Strickland test, then the Court need not consider the
other prong. Strickland, 466 U.S. at 697, 104 S. Ct. at
2069.
In the context of§ 2254(d), the deferential
standard that must be accorded to counsel’s
representation must also be considered in tandem
with the deference that must be accorded state court
decisions, which has been referred to as “doubly”
deferential. Harrington v. Richter, 562 U.S. 86, 105,
131 S. Ct. 770, 788, 178 L. Ed. 2d 624 (2011). “When§
24a

2254(d) applies, the question is not whether counsel’s
actions were reasonable. The question is whether
there is any reasonable argument that counsel
satisfied Strickland’s deferential standard.” Id. “If
the standard is difficult to meet, that is because it was
meant to be.” Id. at 786; see also Morales v. Thaler,
714 F.3d 295,302 (5th Cir. 2013). The absence of
evidence cannot overcome the “strong presumption
that counsel’s conduct [fell] within the wide range of
reasonable professional assistance” and cannot
establish that performance was deficient. Burt v.
Titlow, -- U.S. --, 134 S. Ct. 10, 187 L. Ed. 2d 348
(2013).
As discussed below, Petitioner’s ineffectiveassistance-of-counsel claim was adjudicated on the
merits in a state-court proceeding, and the denial of
relief was based on a factual determination that will
not be overturned unless it is objectively
unreasonable in light of the evidence presented in the
state court proceeding. Miller-El v. Cockrell, 537 U.S.
322, 340, 123 S. Ct. 1029, 1041 (2003). A state-court
factual determination is not unreasonable merely
because the federal habeas court would have reached
a different conclusion in the first instance. Burt, 134
S. Ct. at 15. Section 2254(e)(1) provides that a
determination of a factual issue made by a state court
shall be presumed to be correct. The petitioner has the
burden of rebutting this presumption of correctness
by clear and convincing evidence. Hill v. Johnson, 210
F.3d 481,485 (5th Cir. 2000). When the Texas Court
of Criminal Appeals denies relief in a state habeas
corpus application without written order, it is an
adjudication on the merits, which is entitled to this
presumption. Ex parte Torres, 943 S.W.2d at 472;
25a

Singleton, 178 F.3d at 384 (recognizing this Texas
state writ jurisprudence).
Where, as here, “a state court has already
rejected an ineffective-assistance claim, a federal
court may grant habeas relief [only] if the decision
was ‘contrary to, or involved an unreasonable
application of, clearly established Federal law, as
determined by the Supreme Court of the United
States.”‘ Yarbrough v. Gentry, 540 U.S. 1, 5 (2003)
(quoting 28 U.S.C. § 2254(d)(l)). See Santellan v.
Cockrell, 271 F.3d 190, 193 (5th Cir. 2001) (“[A]
federal court’s authority under AEDPA is ... limited to
determining the reasonableness of the ultimate
decision,” even if the state court has rejected an
ineffective-assistance claim without any reasoning.).
1.

Failure to Present Most Viable
Defense.
In his first ground, Petitioner argues that his
trial attorneys were ineffective for failing to present
his most viable defense; that is, that a prior brain
injury prevented Petitioner from forming a culpable
criminal intent. Petitioner places special emphasis on
the contention that trial counsel learned well in
advance of trial that their primary self-defense
witness was unhelpful, making this a rare case in
which counsel’s decision was outside the bounds of
acceptable strategy. Petitioner further argues that
“[t]here is certainly a ‘reasonable probability’ that had
[Petitioner’s]
trial
attorneys
presented
a
neuropsychologist and/or an expert in traumatic
brain injury during the guilt phase of trial the result
of the proceeding would have been different,” and
“(h]ad an expert such as Dr. Price and Dr. Winslade
26a

explained to the jury the impact [Petitioner’s] brain
injury had on his decision-making ability, it is likely
the jury would have found that North did not have the
requisite culpable mental state to commit murder.”
Respondent points to the affidavits collected in
Petitioner’s state habeas proceedings from both
defense counsel and from the prosecutor wherein both
agreed that self-defense was likely the only viable
defense strategy. Respondent further notes that in
their affidavit, trial counsel acknowledged that they
knew of Petitioner’s brain injury and his pretrial
statements, consulted with mental-health experts
and presented evidence of his injury at punishment.
The Court notes that in their affidavit, trial counsel
David Thedford and Sam Moore explained their
strategic decision:
Sam Moore had known Applicant for
many years. He knew Applicant and his
parents prior to the brain injury and
how it happened. His medical records
were examined and discussed with a
neuropsychologist and a psychiatrist
prior to trial to determine applicant’s
level of function. No one stated he did
not have the ability to form intent to
commit murder. (See neuropsychologist
and psychiatrist testimony attached
hereto and made a part hereof by
reference.)
Further, trial counsel had represented
Applicant on several criminal and civil
matters and consulted with him on
27a

several cases beginning in 2006 and
continuing through the murder trial.
Applicant lived in his own home, had a
driver’s license; owned and drove a
pickup truck. Numerous conferences
were held with Applicant since 2006,
and he always appeared alone in the
office and alone with his counsel in court.
He also purchased the firearm used in
this case prior to the altercation, the
subject of this suit. Applicant always
understood the issues involved in the
various cases and always made the
decisions about what he wanted to do.
Applicant and his family were counseled
prior to and during every major decision
in this case. Applicant and his family
refused to allow him to testify, even after
being advised that self- defense would be
hard to sell without his testimony.
Trial counsel, Applicant and Applicant’s
family believed self-defense was the best
defense to this murder charge.
No experienced trial attorney who
defends and has defended criminal cases
would offer two separate defenses in the
same case in the guilt/innocence stage.
Trial counsel believe self-defense and a
lack of ability to form an intent would be
inconsistent and neither defense would
be successful.
28a

(Ex
Parte
North,
WR-84,239-02,
Affidavit of Sam Moore and David
Thedford (June 22, 2016) (Doc. 15-20,
pp. 1-2)). With regard to the contention
that their primary self-defense witness
was unhelpful, Counsel stated:
The reason that self-defense was the
best defense and the only one to be
presented on the guilt/innocence phase
of the trial was because of the statement
of the Applicant about what happened
on February 9, 2011, ‘that he intended to
shoot the deceased because he was
afraid he was going to die’; because of
the statements of the eye witnesses to
the event and because Applicant’s
lawyers had hired Dr. Casada and a selfdefense expert, Albert Rodriguez, of
Austin, Texas.
Albert Rodriguez held himself out as an
expert in self-defense having recently
retired from the Department of Public
Safety of Texas. His last position was
related as expert and instructor to DPS
troops on self-defense.
Shortly after counsel was hired in late
February or March 2011, he drove to
Austin and met with him at a hotel. The
facts of the incident were related to
Albert Rodriguez exactly as related by
Applicant, Mr. Rodriguez stated he
could help as an expert on self-defense.
29a

He listed two references that he had
worked for with their addresses and
numbers for me to contact. One was in
Austin, Texas, and one was in San
Marcos, Texas, and both were criminal
lawyers. Both gave Albert Rodriguez
excellent recommendations, and the
Austin lawyer related facts of a case in
Austin that Rodriguez had testified in
that were similar to the facts in
Applicant’s case. That case was
reportedly a not guilty verdict.
Mr. Rodriguez was hired and paid an
initial fee of $3,000. All of the file was
presented to Mr. Rodriguez; numerous
conversations were held between Mr.
Rodriguez and trial counsel regarding
the case.
Rodriguez came to Abilene, Texas to
trial attorney’s office and spent one day
interviewing Applicant. Mr. Rodriguez
indicated everything was alright with
regard to Applicant’s defense. He was
eventually paid $13,000, which was
never returned. The week before the
trial in the 350th District Court, trial
attorney called Mr. Rodriguez to advise
what time, date and location he was
going to be needed. He advised at that
time he could not help and would not
appear.
At this late date trial counsel did not
have time to contact another expert and
30a

did not have the funds if he did have
time. All of our effort and attention was
directed at self-defense, and we did not
or could not change our defense at this
late date. We still believe self-defense
was the best defense, even without an
expert.
Id. at pp. 3-4.
The affidavit of trial counsel and the record
contains sufficient evidence to demonstrate that
counsel’s decision not to present a defense based on
Petitioner’s inability to form the requisite mens rea
due to traumatic brain injury resulted from an
informed trial strategy, and that such strategy was at
least, in part, based upon the examination of
Petitioner’s medical records by a neuropsychologist
and psychiatrist prior to trial. Petitioner has
presented no argument or evidence in this federal
habeas action that could lead the court to conclude
that the state courts unreasonably applied the
standards set forth in Strickland based on the
evidence presented in state court. 28 U.S.C. § 2254(d).
Furthermore, federal habeas courts are not to lightly
second-guess counsel’s decisions on matters of tactics
and generally entrust such matters to the
professional discretion of counsel. Indeed, “[s]trategic
choices made after thorough investigation of law and
facts relevant to plausible options are virtually
unchallengeable.” Strickland, 466 U.S. at 690. A
conscious and informed decision on trial tactics and
strategy cannot be the basis of constitutionally
ineffective assistance of counsel unless it is so ill
chosen that it permeates the entire trial with obvious
31a

unfairness.” Id. at 689. Clearly, Petitioner’s trial
attorneys were functioning as the counsel guaranteed
by the Sixth Amendment, and the state court’s
decision denying petitioner relief on this issue was not
unreasonable. See Neal v. Puckett, 286 F.3d at 235.
In addition to failing to show deficient
performance under Strickland, Petitioner fails to
demonstrate resulting prejudice, that is, a reasonable
probability that, but for counsel’s failure to pursue a
defensive strategy predicated on his traumatic brain
injury, the outcome of his trial would have been
different. Petitioner also fails to show that the state
court’s decision was an unreasonable application of
the clearly established federal law of Strickland, or
was contrary to that established law, or was based on
an unreasonable determination of facts. See 28 U.S.C.
§ 2254(d), (e). Accordingly, Petitioner is not entitled to
relief on this ground.
2.

Alternate Juror.

In his next ground, Petitioner complains that
trial counsel were ineffective when they failed to
object to the trial court’s instruction to the alternate
juror to be present during the jury’s deliberation. In
support of this ground, Petitioner provided an
affidavit of the alternate juror stating that she
participated in the jury’s deliberations at both the
guilt and punishment phases and expressed her
opinion that Petitioner was guilty. Respondent argues
that such an objection would have been meritless, and
in any event, this Court must presume that the TCCA
denied relief on the grounds set out in the trial court’s
response. See Ylst v. Nunnemaker, 501 U.S. 797, 803
(1991). Consequently, Respondent argues that as the
32a

TCCA found the convicting court’s interpretation of
state law regarding alternate jurors acceptable, this
Court may defer to that finding. Additionally,
Respondent argues that even if counsel’s failure to
object to the instruction to the alternate juror to be
present during the jury’s deliberation was deficient,
he has not shown that he was prejudiced.
After reviewing the pleadings and the record in
this case, the Court agrees that Petitioner has not met
the requirements of the second prong of Strickland;
that is, he has not proven that the outcome would
have been different or that the verdict was affected in
any way by the presence of the alternate juror, or that
her opinion as expressed had any impact on the
decision that was made by the jurors who ultimately
voted to find Petitioner guilty. Petitioner fails to show
that the state court’s decision was an unreasonable
application of the clearly established federal law of
Strickland, or was contrary to that established law, or
was based on an unreasonable determination of facts.
See 28 U.S.C. § 2254(d), (e). Accordingly, Petitioner is
not entitled to relief on this ground.
3.

Forensic Testing

In his third ground, Petitioner claims that trial
counsel was ineffective in failing to investigate and
present crucial evidence that the victim fired a gun in
support of the defensive strategy of self-defense.
Specifically, Petitioner contends that if counsel had
ensured that the victim’s clothing was tested for
gunshot residue, he could prove that he acted in selfdefense because the clothing “could have established
that the [victim] fired his gun at [Petitioner],” and
that trial counsel was ineffective when they “put all
33a

their eggs in the self-defense basket,” but failed to
investigate and develop readily available evidence
that may have led them to decide that the self-defense
strategy was not the best approach in this case.
Respondent argues that Petitioner has not
shown what additional forensic testing would have
revealed or how it would have aided his case, noting
that the gunshot residue test of the victim’s hands
was discussed during the trial, and further relying on
the findings made by the trial court in his state
habeas proceedings to support a conclusion that the
claim is meritless.
In response to the Respondent’s Answer,
Petitioner filed a Motion for Discovery (Gunshot
Residue Testing) that is essentially the same as the
one filed in the state habeas court, arguing that the
discovery was necessary for this Court to fairly and
fully review the constitutionality of his conviction.
Respondent filed a Response in Opposition to the
Motion for Discovery, advising the Court that the
victim’s clothing had been returned to the mother of
the victim. Respondent also argued, among other
things, that this Court is limited to that evidence
before the state court at the time the state court made
its decision; the evidence sought would be cumulative;
and Petitioner had not shown good cause for discovery
in light of the other evidence presented at the trial.
After reviewing the pleadings and the record in
this case, the Court agrees that Petitioner has not
shown that counsel was ineffective for failing to have
the victim’s clothing tested for gunshot residue.
Petitioner fails to show that the state court’s decision
was an unreasonable application of the clearly
34a

established federal law of Strickland, or was contrary
to that established law, or was based on an
unreasonable determination of facts. See 28 U.S.C. §
2254(d), (e).
Accordingly, Petitioner is not entitled to relief
on this ground. Moreover, for the reasons stated in
Respondent’s Response in Opposition, the Court finds
that the Motion for Discovery should be DENIED.
4.

Failure to Prepare Multiple
Witnesses.

In his fourth ground, Petitioner alleges that
trial counsel was ineffective for failing to prepare
three witnesses, namely Tyler Casey, Jamaine
Robinson, and Elaine Menta. Petitioner contends this
failure resulted in the witnesses presenting testimony
that supported the prosecution, and that he would
have been better off calling no witnesses at all.
Petitioner contends that failure to prepare Robinson
alone was extremely prejudicial, stating that “it
appears that [Petitioner’s] counsel did not talk to
Robinson before calling him to the stand.” In sum,
Petitioner argues that the lack of preparation of three
witnesses was prejudicial because it undermines
confidence in the outcome of the proceedings. In
Response, Respondent essentially counters that this
claim is a “bare allegation,” and as such fails to show
that counsel’s performance was deficient or
prejudicial.
Even if the three witnesses did not prove to be
the best witnesses once on the stand, other than the
conclusory assertion that it “appears” that trial
counsel did not talk to Robinson prior to his
35a

testimony, there is nothing in the record to indicate
that trial counsel did not attempt to prepare these
witnesses for testimony prior to trial. “Mere
conclusory allegations do not raise a constitutional
issue in a habeas proceeding.” Ross v. Estelle, 694
F.2d 1008, 1011 (5th Cir. 1983). The state court’s
determination of this habeas claim was not contrary
to or an unreasonable application of clearly
established federal law or based on an unreasonable
determination of the facts in light of the evidence. See
28 U.S.C. § 2254(d). Petitioner is not entitled to
habeas relief on this ground.
5.

Cumulative Errors

Finally, Petitioner argues that counsel’s
failures were cumulatively prejudicial. Federal
habeas relief is only available for cumulative errors
that are of a constitutional dimension. Coble v.
Dretke, 444 F.3d 345, 355 (5th Cir. 2006); Livingston
v. Johnson, 107 F.3d 297, 309 (5th Cir. 1997).
Petitioner here has failed to establish any error in the
conduct of his counsel. Therefore, relief is not
available on this basis. See Shields v. Dretke, 122 Fed.
Appx. 133, 154 (5th Cir. 2005) (claim that cumulative
effect of trial counsel error was denial of effective
assistance of counsel fails where petitioner has shown
no such error); United States v. Moye, 95 l F.2d 59, 63
n. 7 (5th Cir. 1992) (“Because we find no merit to any
ofMoye’s arguments of error, his claim of cumulative
error must also fail”). Accordingly, the Court
concludes that Petitioner is not entitled to relief on
his claims of ineffective assistance of counsel.

36a

IV. CONCLUSION
For the reasons set forth above and in
Respondent’s Answer, the Court finds that whether or
not the Petition is barred by the statute of limitations,
the Petition is without merit because Petitioner has
not demonstrated that the state court’s adjudication
of his claims was contrary to or an unreasonable
application of clearly established Supreme Court law
as required by 28 U.S.C. § 2254(d). In addition, the
Court finds that, pursuant to Rule 22 of the Federal
Rules of Appellate Procedure and 28 U.S.C. § 2253(c),
Petitioner has failed to show that reasonable jurists
would (1) find the Court’s “assessment of the
constitutional claims debatable or wrong,” or (2) find
“it debatable whether the petition states a valid claim
of the denial of a constitutional right” and “debatable
whether [this Court] was correct in its procedural
ruling,” and any request for a certificate of
appealability should be denied. Slack v. McDaniel,
529 U.S. 473, 484 (2000).
It is, therefore, ORDERED:
1.
The instant Petition for Writ of Habeas
Corpus is DENIED and dismissed with prejudice.
2.
All relief not expressly granted is denied
and any pending motions, including Petitioner’s
Motion for Discovery (Gunshot Residue Testing) are
DENIED.
3.
Any
request
appealability is denied.
Dated March 2, 2018.
37a

for

certificate

of

s/ Sam. R. Cummings
SAM R. CUMMINGS
Senior United States
District Judge

38a

